No.19A_ _
IN THE

~upreme ~ourt of tbe Wniteb ~tateg
UNITED PARCEL SERVICE, INC.,

Applicant,
V.

THE STATE OF NEW YORK, THE CITY OF NEW YORK,

Respondents.
CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court and
that on this 12th day of February, 2020, I caused a copy of the Application for an
Extension of Time Within Which to File a Petition for a Writ of Certiorari to the United
States Court of Appeals for the Second Circuit to be served by third-party commercial
carrier on the counsel identified below, and caused an electronic version to be
transmitted to the counsel identified below, pursuant to Rule 29.5 of the Rules of this
Court. All parties required to be served have been served.
Barbara Underwood
Solicitor General
Steven Wu

NEW YORK OFFICE OF THE
ATTORNEY GENERAL

28 Liberty Street, 23rd Floor
New York, NY 10005
(212) 416-8020
barbara.underwood@ag.ny.gov
steven.wu@ag.ny.gov

Counsel for State of New York

Zachary W. Carter
Richard P. Dearing
Claude S. Platton
Jeremy W. Shweder

NEW YORK CITY LAW DEPARTMENT

100 Church Street
New York, NY 10007
(212) 356-2611
zcarter@law.nyc.gov
rdearing@law.nyc.gov
cplatton@law.nyc.gov
jshweder@law.nyc.gov

